<html>
<title> - THE NEW MADRID SEISMIC ZONE: WHOSE FAULT IS IT ANYWAY?</title>
<body><pre>[Senate Hearing 110-454]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-454
 
         THE NEW MADRID SEISMIC ZONE: WHOSE FAULT IS IT ANYWAY? 

=======================================================================

                                HEARING

                               before the

                     AD HOC SUBCOMMITTEE ON STATE,
                        LOCAL AND PRIVATE SECTOR
                      PREPAREDNESS AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2007

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-505 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN E. SUNUNU, New Hampshire
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia

                     Kristin Sharp, Staff Director
                Michael McBride, Minority Staff Director
                        Amanda Fox, Chief Clerk







































                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Pryor................................................     1

                               WITNESSES
                       Tuesday, December 4, 2007

Glenn M. Cannon, Assistant Administrator for Disaster Operations 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     3
John R. Hayes, Jr., Director, National Earthquake Hazards 
  Reduction Program, National Institute of Standards and 
  Technology, U.S. Department of Commerce........................     5
David Applegate, Senior Science Advisor for Earthquakes and 
  Geological Hazards, U.S. Geological Survey.....................     7
David Maxwell, Director, Arkansas Department of Emergency 
  Management and Vice Chair, Central United States Earthquake 
  Consortium.....................................................    15
Callen Hays, Crisis Management Coordinator, Memphis Light, Gas, 
  and Water......................................................    17

                     Alphabetical List of Witnesses

Applegate, David:
    Testimony....................................................     7
    Prepared statement...........................................    44
Cannon Glenn M.:
    Testimony....................................................     3
    Prepared statement...........................................    25
Hayes, John R., Jr.:
    Testimony....................................................     5
    Prepared statement with an attachment........................    35
Hays, Callen:
    Testimony....................................................    17
    Prepared statement...........................................    59
Maxwell, David:
    Testimony....................................................    15
    Prepared statement...........................................    51

                                APPENDIX

Background.......................................................    63
Charts submitted by Mr. Cannon...................................    65
``Concepts of Planning and Response to a Missouri Catastrophic 
  Event (Earthquake) (Missouri State Emergency Operations Plan 
  Annex Y)'' submitted by Mr. Cannon.............................    67
``Missouri Local Workshop Registration List'' submitted by John 
  Campbell, Acting Operations Branch Chief of The Missouri 
  Emergency Management Director's Advisory Committee.............    86
Questions and Responses submitted for the Record from:
    Mr. Cannon...................................................    94
    Mr. Applegate................................................    99
    Mr. Hayes....................................................   100


         THE NEW MADRID SEISMIC ZONE: WHOSE FAULT IS IT ANYWAY?

                              ----------                              


                       TUESDAY, DECEMBER 4, 2007

                               U.S. Senate,        
             Ad Hoc Subcommittee on State, Local, and      
           Private Sector Preparedness and Integration,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. David Pryor, 
Chairman of the Subcommittee, presiding.
    Present: Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. We will get underway here. I think we are 
all set up here now with our visuals. I want to thank the panel 
for being here and I apologize for being 5 or 10 minutes late; 
they called a vote on us right at 2:30 and I had to get over to 
the Capitol to vote.
    Some of the Senators on the Subcommittee may be coming in 
later. We have a Commerce Committee markup and some action on 
the floor and some other things, so its a busy day. What I will 
do is I will leave the record open for a few weeks to allow 
Senators to ask questions. Panelists, if you could get us your 
responses back as quickly as possible, we would appreciate it.
    Let me go ahead and welcome everyone here. I want to thank 
all of you for being here today for this hearing before the Ad 
Hoc Committee on State, Local, and Private Sector Preparedness 
and Integration. We are calling this hearing ``The New Madrid 
Seismic Zone: Whose Fault is it Anyway?'' a little bit of a 
play on words. I know you earthquake researchers get tired of 
that play on words, but we couldn't resist. We are talking 
about a very serious subject today, one that touches my State 
very directly, as you can see from the map, and that is the New 
Madrid fault line.
    I want to welcome Dave Maxwell and thank him for being 
here. He is in the back of the room. He is on our next panel, 
but he is from my home State of Arkansas and we will give him 
the proper introduction in a few moments.
    As most people who follow earthquakes in this country and 
understand the history of earthquakes in this country, in 1811 
and 1812, a series of three very large earthquakes struck the 
New Madrid region. The earthquakes measured between 7.0 and 8.0 
on the Richter scale. The earthquakes were so powerful that 
they changed the course of the Mississippi River and the 
Mississippi River actually flowed backwards for some time. The 
tremors from the earthquakes could be felt as far away as 1,000 
miles. In fact, there are recorded stories of church bells 
ringing in Boston because the ground was shaking in Boston, 
Massachusetts.
    Today, we know a lot more about earthquakes than we did 
back in 1811 and 1812 and we can see the New Madrid quake zone 
and the fault line; it affects seven States: Arkansas, 
Mississippi, Tennessee, Missouri, Kentucky, Illinois, and 
Indiana. Science tells us that if there is a major earthquake 
on that fault line, that it could be worse than the earthquake 
that we could see in Southern California at some point that 
gets a lot more publicity and has a lot more notoriety, by the 
way, but this earthquake here is a very serious threat to the 
United States. Imagine every bridge along the Mississippi River 
on those maps going away, or imagine the levees breaking along 
not just the Mississippi River, but all the river systems there 
that are impacted here, you can look at locks and dams 
breaking, you can look at levees, which almost surely some of 
them would surely disintegrate or at least be greatly damaged 
with a major earthquake, it doesn't take long to understand how 
serious this challenge and this threat is.
    Scientists estimate that, depending on how severe the 
earthquake might be, it may cost upwards of $500 billion to 
this country, and if you look at Hurricane Katrina, as terrible 
as it was, and we all know about the tragedy in Hurricane 
Katrina, that has cost the government $130 billion so far. So 
this one could far outscale the cost and the difficulty, the 
challenges that it would present this country.
    Since 1812, we have escaped a catastrophe in the region, 
but the threat is real and I think it is essential that we 
assess the hazard, develop accurate response plans, and educate 
the public about the safety precautions that we all can take.
    Today, we will hear from several Federal agencies about 
their role in preparing for and responding to an earthquake in 
the New Madrid Seismic Zone. All the agencies represented--
FEMA, NIST, USGS--play an important role in research, 
mitigation, and response.
    On the second panel, we will hear about the work being done 
at the regional and State level. Finally, we will discuss 
preparation efforts that critical infrastructure owners and 
operators in the region are taking.
    Because there is so much we don't know about the earthquake 
hazard in this region and because the area has not suffered a 
major earthquake for almost 200 years, it is critical to bring 
attention to this topic. I hope we can work together to develop 
and maintain open lines of communication between all levels of 
government and our critical infrastructure and private sector 
partners.
    And one more note before we go to our first panel. I know 
that a few years ago, FEMA did an analysis and looked at the 
biggest challenges that the country may face in natural 
disasters and they decided to do two major exercises in the 
middle part of the country. One was Hurricane Pam, which 
simulated a large hurricane. This was a couple of years before 
Hurricane Katrina. And the second one they never did, but they 
were supposed to. FEMA was supposed to do a major exercise on 
the New Madrid earthquake. So it is my hope that, at some 
point, we put that back on the calendar. I know there is 
discussion for putting a major planning exercise together for 
2011, which I think would be the 200 anniversary of the last 
earthquake. But anyway, I hope that we will consider making 
that a major and very regional effort.
    So with that, what I want to do is introduce the panel. Our 
first witness will be Glenn Cannon, Assistant Administrator for 
the Disaster Operations Directorate at FEMA. Mr. Cannon is 
responsible for coordinating the development and execution of 
interagency plans for response operations in Presidential 
disaster and emergency declarations. He has an extensive 
background in public safety administration and has served in 
many leadership roles in the City of Pittsburgh.
    The second witness will be Jack Hayes, Director of the 
National Earthquake Hazards Reduction Program at the National 
Institute of Standards and Technology. Mr. Hayes is responsible 
for overall program management, coordination, and technical 
leadership and facilitation of implementation of earthquake 
risk mitigation measures. Prior to joining the National 
Institute of Standards and Technology (NIST), Mr. Hayes was a 
leader of seismic and structural engineering research at the 
U.S. Army Research and Development Centers Construction 
Engineering Research Laboratory.
    And our third witness on this panel is Dr. David Applegate, 
Senior Science Advisor for Earthquakes and Geological Hazards 
at the U.S. Geological Survey. Dr. Applegate is responsible for 
coordination of geologic hazards activities across the U.S. 
Geological Survey. He also chairs the National Science and 
Technology Council's Interagency Subcommittee on Disaster 
Reduction and is an adjunct faculty member of the University of 
Utah's Department of Geology and Geophysics.
    So, Mr. Cannon, please proceed.

 TESTIMONY OF GLENN M. CANNON,\1\ ASSISTANT ADMINISTRATOR FOR 
 DISASTER OPERATIONS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT 
          AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cannon. Thank you, Chairman Pryor, and thank you for 
the opportunity to discuss FEMA's Catastrophic Disaster 
Response Planning Initiative for a potential earthquake along 
the New Madrid Seismic Zone.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cannon appears in the Appendix on 
page 25.
---------------------------------------------------------------------------
    Successfully responding to the anticipated effects of a 
catastrophic disaster is one of the greatest challenges 
Federal, State, and local governments face. Recognizing this, 
FEMA has implemented a Catastrophic Disaster Response Planning 
Initiative designed to enhance disaster response planning 
activities by focusing attention on disasters that could 
immediately overwhelm existing local capabilities.
    Working with our partners at every level of government, we 
are identifying high-risk areas, developing loss estimates, 
assessing response capabilities and the accompanying 
shortfalls, and developing comprehensive planning strategies to 
address these shortfalls and enhance capabilities. This 
initiative also involves participation by the private sector, 
voluntary organizations, non-governmental organizations, 
academia, and members of the critical infrastructure sections. 
We are collaborating on a number of functional response topics 
with a focus on particularly high-risk regions, which are laid 
out in greater detail in my written testimony.
    But today's hearing is focused on our efforts to improve 
overall capabilities to respond to and recover from a 
catastrophic New Madrid Seismic Zone earthquake. Our activities 
include identifying issues that cannot be resolved based on 
current capabilities and proposing recommended courses of 
action for decisionmakers.
    Our New Madrid Planning Initiative focuses on a no-notice 
major earthquake in the central portion of the United States. 
Working with our partners, we have conducted risk assessments 
that show the wide-ranging impact an earthquake in this region 
would have. Estimates of total building loss alone exceeded $70 
billion. Approximately 44 million people live in the New Madrid 
Seismic Zone area, with 12 million in the highest-risk areas. 
An earthquake would have a major impact on the economy, 
transportation, lifelines, and other factors of everyday life 
across this region and the entire country. Estimating losses is 
essential to decisionmaking at all levels of government. It 
provides a basis for developing mitigation, emergency 
preparedness, and response and recovery plans, policies, and 
capabilities.
    We are working from the grassroots level up to carry out 
all aspects of planning for a New Madrid event. This includes 
using a scenario-driven plan development process with area-
specific workshops in both urban and rural areas. The workshops 
bring together local, State, and Federal response operators 
with emergency planners and other subject matter experts to 
develop catastrophic response plans based on real world 
modeling. The resulting hazard-specific annexes will supplement 
existing base plans for response and recovery.
    To date, local workshops and planning activities have been 
conducted in Arkansas, Indiana, Missouri, Illinois, Kentucky, 
and Tennessee, and workshops are scheduled in Mississippi and 
Alabama for early next year. Several States are also involved 
as potential host States to accept those evacuating areas hit 
by such a catastrophic earthquake. These States provided 
significant evacuee support following Hurricane Katrina. Being 
located in and near the New Madrid Seismic Zone, they would 
likely be called upon to assist evacuees.
    As you can imagine, there are many operational, logistical, 
and victim assistance activities that we will all need to 
respond to in any catastrophic event. I am proud of the 
coordinated and integrated activities that we are taking to be 
prepared for responding to a major event. The New Madrid 
Seismic Zone Initiative offers significant benefits, such as 
greater cross-disciplinary and inter-disciplinary involvement 
in the planning, including examining economic stabilization and 
post-disaster redevelopment issues. In fact, the lessons 
learned from this initiative will be exported to other 
catastrophic planning venues across the Nation.
    Administrator David Paulison noted recently that FEMA's 
mission is based upon the founding principles of this great 
Nation: Protecting life, liberty, and the pursuit of happiness. 
The Founding Fathers banded together to create this Nation. In 
a similar fashion, we are banded together with our many 
partners to provide effective emergency management. None of us 
can or should try to do it alone. Working together, we can make 
sure that during the next catastrophic event, we have an 
integrated response system where all participants at all levels 
of government, the private sector, and non-governmental 
organizations understand their roles and responsibilities prior 
to the event occurring.
    Together, we can also educate the public on their role 
during disasters. Government, even perfectly synchronized, 
cannot provide the entire response. All of our citizens need to 
participate in the emergency management process and take 
responsibility for their personal preparedness. A catastrophic 
disaster, whether in the New Madrid Seismic Zone, along our 
Gulf Coast, or anywhere in the country, will impact all of us. 
As such we must all work together to be prepared.
    This concludes my testimony and I will be pleased to answer 
any questions. Thank you.
    Senator Pryor. Thank you. Mr. Hayes.

    TESTIMONY OF JOHN R. HAYES, JR.,\1\ DIRECTOR, NATIONAL 
  EARTHQUAKE HAZARDS REDUCTION PROGRAM, NATIONAL INSTITUTE OF 
     STANDARDS AND TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Mr. Hayes. Chairman Pryor, I thank you and the Members of 
the Subcommittee for conducting today's hearing. I appreciate 
the opportunity to be here before you to present a brief 
overview of the National Earthquake Hazards Reduction Program 
(NEHRP), and the role that the National Institute of Standards 
and Technology (NIST), plays in this partnership. NEHRP was 
established in 1977 to provide technical assistance for pre-
earthquake mitigation activities by State and local 
governments, industry, and the private sector.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hayes with an attachment appears 
in the Appendix on page 35.
---------------------------------------------------------------------------
    As background, I note that earthquakes strike without 
warning. In the past 200 years, very large magnitude 
earthquakes have occurred in Alaska, California, South 
Carolina, and the New Madrid region. There is evidence that 
such earthquakes have occurred in the more distant past in the 
Pacific Northwest, Utah, and other areas. A 2006 National 
Research Council report noted that 75 million people and half 
of our Nation's buildings, worth $8.6 trillion in 2003 dollars, 
are located in areas of the United States that are prone to 
damaging earthquakes.
    The United States has been fortunate not to have 
experienced recent severely damaging earthquakes, but 
considering our significant urbanization and societal 
interconnectivity, the consequences of earthquakes include 
significant injury and loss of life in addition to potentially 
severe economic and national security consequences. Experts 
consistently estimate that a ``big one'' that strikes a major 
U.S. urban area may cause over $100 billion in losses.
    Most recently reauthorized in 2004, NEHRP is responsible 
for three main areas: Improving the understanding of 
earthquakes and their effects through interdisciplinary 
research; developing effective measures for earthquake hazards 
reduction; and promoting the adoption of earthquake hazards 
reduction measures. The 2004 reauthorization also directed 
NEHRP to develop, operate, and maintain the Advanced National 
Seismic System, the George E. Brown, Jr. Network for Earthquake 
Engineering Simulation, and the Global Seismographic Network.
    Congress has indicated it intends for NEHRP to provide 
better earthquake preparedness for the Nation through 
interagency coordination and cooperation with the following 
program agency responsibilities. The National Science 
Foundation (NSF) supports a broad range of basic research that 
is integrated with educating students at all levels, as well as 
professional and public outreach. NSF has supported three 
National Earthquake Engineering Research Centers, one of which, 
the Mid-America Earthquake Center, is headquartered at the 
University of Illinois at Urbana-Champaign.
    NIST is responsible for performing problem-focused R&D to 
improve earthquake-resistant building codes, standards, tools, 
and practices. In the recent reauthorization, Congress directed 
NIST to assume the program lead agency role.
    The U.S. Geological Survey conducts and supports earth 
science investigations, produces seismic hazards assessments, 
monitors earthquake activity, and coordinates post-earthquake 
reconnaissance.
    The Federal Emergency Management Agency (FEMA) translates 
research results into cost-effective State and local loss 
reduction measures. To do that, FEMA provides technical 
guidance and information about building codes and practices, 
supports public-private partnerships, provides estimates of 
potential losses, and supports public awareness education. In 
partial fulfillment of these responsibilities in the mid-
continent region, FEMA supports the Central U.S. Earthquake 
Consortium. Consistent with the statutory responsibilities, 
FEMA leads NEHRP in working closely with the National Model 
Building Code organizations through the Building Seismic Safety 
Council to ensure that cost-effective earthquake construction 
techniques are incorporated in the Nation's building codes.
    The four program agencies are jointly developing plans for 
earthquake engineering research and outreach efforts that 
support this process.
    The 2004 NEHRP reauthorization directed several key new 
program developments. It directed the formation of an 
Interagency Coordinating Committee (ICC), that is composed of 
the directors of the four program agencies as well as the 
directors of the Office of Science and Technology Policy and 
the Office of Management and Budget. The ICC released its first 
annual report to the Congress on NEHRP in early 2007 and 
recently approved the outline for a new NEHRP strategic plan 
that is now under development. The plan will include several 
key areas of needed program emphasis that were endorsed by the 
ICC in 2006.
    The reauthorization also directed the formation of an 
Advisory Committee on Earthquake Hazard Reduction that advises 
the ICC chairperson on program technical direction. The 
committee was formed in early 2007 and has now met twice. At 
its most recent meeting in October, the committee provided 
detailed feedback for improving and refining the strategic plan 
that is now under development.
    As I mentioned earlier, NIST is responsible for performing 
applied engineering research that links fundamental science and 
engineering knowledge with its practical application for cost-
effective design and construction of earthquake-resistant 
structures. Until fiscal year 2007, funding had not existed to 
support this responsibility. In fiscal year 2007, the Congress 
appropriated $800,000 of new monies that allowed NIST to 
initiate this NEHRP research. The President's fiscal year 2008 
budget request added another $4.75 million for NIST earthquake 
research that would enable NIST to undertake a substantial 
program of coordinated in-house and extramural research.
    In conclusion, NEHRP focuses on pre-earthquake mitigation 
activities and has no direct operational responsibilities for 
post-earthquake response and recovery. However, NEHRP resources 
do support those activities, providing critical information to 
address this national hazard.
    Thank you very much, sir, for your attention, and I will be 
happy to answer any questions you might have.
    Senator Pryor. Thank you. Dr. Applegate.

  TESTIMONY OF DAVID APPLEGATE,\1\ SENIOR SCIENCE ADVISOR FOR 
   EARTHQUAKES AND GEOLOGICAL HAZARDS, U.S. GEOLOGICAL SURVEY

    Mr. Applegate. Thank you, Mr. Chairman, for holding this 
hearing on a very important topic. From today's perspective, 
the three magnitude 7.5 to 8.0 earthquakes that struck the 
Mississippi Valley back in the winter of 1811 and 1812 seem 
quite distant, but infrequent events nevertheless represent 
very real risks, and if those earthquakes were to recur today, 
significant damage to buildings, transportation, and critical 
infrastructure would occur in at least eight States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Applegate appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    At the U.S. Geological Survey (USGS), we strive to deliver 
the information and tools that emergency managers, public 
officials, and citizens need to prevent natural hazards from 
becoming disasters. In collaboration with our partners in the 
National Earthquake Hazards Reduction Program plus State and 
local governments and universities, the USGS carries out our 
responsibilities under the Stafford Act to provide warnings and 
notifications on earthquakes and other geologic events as well 
as additional NEHRP roles to assess earthquake hazards, support 
targeted research, and help build public awareness.
    Now, why are there earthquakes in the Central United 
States? Although the large majority of earthquakes occur along 
the edges of the brittle tectonic plates that make up the 
earth's outer skin, earthquakes do occur far from present-day 
plate boundaries as the stresses from those boundary zones are 
translated into the more stable interiors, as in the case in 
the Central and Eastern United States. Such earthquakes are 
less frequent than in California or Alaska, but an earthquake 
in the mid-continent affects a much larger area than the same 
size earthquake in California, and that is reflected in both of 
the diagrams up here,\1\ the one on the dais showing comparison 
of a damaging earthquake, the Northridge earthquake in 1994, 
with the Marked Tree event in 1895, so that is sort of a 
moderate-size quake, and the one over here to my left, 
comparing the 1811 New Madrid events to the 1906 earthquake 
that destroyed the San Francisco area. You can see that the 
damage zones and the zones in which it was felt are much 
broader, and that is because in the Central United States, the 
crust is older and it is colder and it translates the energy 
from seismic waves much more efficiently. In the Mississippi 
Valley, in particular, you also have amplification of that 
shaking because of the very thick sediment, so that communities 
there are more intensely affected.
---------------------------------------------------------------------------
    \1\ The charts referred to appears in the Appendix on page 65.
---------------------------------------------------------------------------
    Now, geologic research shows that similar sequences of 
major earthquakes to those in 1811 and 1812 have happened at 
least twice before, in about 1450 A.D. and 900 A.D. We estimate 
that there is a 7 to 10 percent chance of an earthquake the 
size of those in 1811 and 1812 striking the region in the next 
50 years. However, the occurrence of even a moderate-sized 
earthquake like the 1895 event close to urban centers like 
Memphis could be locally devastating. And the chances of a 
magnitude 6.0 earthquake occurring in this region in the next 
50 years is 25 to 40 percent.
    Now, turning to response, knowing where shaking is most 
intense immediately after an earthquake can save lives by 
providing emergency responders with the situational awareness 
that they need to concentrate their efforts where they matter 
most. For that reason, USGS has been building the Advanced 
National Seismic System (ANSS) to modernize the Nation's 
seismic monitoring infrastructure and provide the most rapid 
information we can about strong shaking. Through ANSS, the USGS 
sends rapid reports of potentially damaging earthquakes to over 
100,000 users, including the Departments of Defense, Homeland 
Security, State and local emergency managers, the news media, 
and the public.
    USGS monitors earthquakes in the Central United States in 
cooperation with the University of Memphis, St. Louis 
University, and the University of Kentucky.
    Now, within 5 minutes after a potentially damaging 
earthquake in the Central United States, notifications are sent 
to local, State, and Federal officials with the epicenter and 
preliminary magnitude. Within 20 minutes, an initial shake map 
is released, and that is shown here.\2\ It is on the left. This 
is a scenario shake map that was used for the recent SONS 
exercise for an 1811-type New Madrid event, with the strongest 
shaking shown in red. That is available in about 20 minutes, 
and then the products are refined as more data arrive, helping 
to prioritize response.
---------------------------------------------------------------------------
    \2\ The chart referred to appears in the Appendix on page 65.
---------------------------------------------------------------------------
    Now, 3 months ago, USGS began delivering a new product 
known as PAGER, the Prompt Assessment of Global Earthquakes for 
Response, which provides rapid estimates of population exposure 
to shaking, giving emergency responders and aid agencies a 
quick estimate of the extent of the likely response required, 
and that is what is shown on the right.
    In addition to shaking that would cause significant damage 
to today's buildings and lifelines, the 1811 and 1812 
earthquakes also caused landslides along the bluffs from 
Mississippi to Kentucky. A type of ground failure called 
liquefaction caused soils to flow and may make roadways in the 
Mississippi Valley, such as I-55, impassable. It also can 
disrupt agriculture and cause levee failures.
    The citizens of this region need to be aware of the likely 
consequences of earthquakes. Through the Central United States 
Earthquake Consortium, testifying in the next panel, the USGS 
and FEMA partner with State emergency management agencies and 
geological surveys to provide information that they can use in 
their planning efforts and to educate the public.
    Mr. Chairman, while earthquakes are inevitable, their 
consequences to our building environment are not and there is 
much we can do as a Nation to improve our resilience to these 
and other natural hazards. This concludes my remarks. I will be 
pleased to answer any questions.
    Senator Pryor. Thank you, Dr. Applegate.
    Let me start with you, if I may, just to follow up on some 
of your testimony. You did a good job of summarizing them 
during your opening statement, I'd like to clarify the 
geological differences between an earthquake in the New Madrid 
area versus one in California. Tell us the geological reasons 
why you could see a more widespread area of damage.
    Mr. Applegate. Sure. Well, there are a couple of geologic 
factors involved. One of those is that out in the West, where 
we have got an active plate boundary, the crust is much more 
broken up. You have a much younger crust, a warmer crust. The 
energy from earthquake waves doesn't get transferred as far. 
For example, in that 1906 earthquake, it was felt about as far 
away as Nevada, but that was it. So all the energy was 
concentrated in a small area.
    In contrast, in the Central United States or the Eastern 
United States, this is very old crust. This has been part of 
the continent for a long time and it is older, it is colder, 
and so basically, just like ringing a bell, the waves are going 
to travel very efficiently through this medium. And so the same 
kind of waves are going to travel over a much broader area.
    And in the case of the Mississippi Valley itself, then you 
have a second factor which leads to damage and that is that you 
have this very thick accumulation of sediments--whenever you 
have a pile of sediment like that, it is just going to shake a 
lot harder than, say, a hard rock site. And so those two 
factors, I think, lead to increased shaking.
    Senator Pryor. Do you call that liquefaction?
    Mr. Applegate. Well, then at the surface, those are exactly 
the kind of sediments, when if mixed with water, when they are 
shaken, they lose all their strength and then you get the 
liquefaction, absolutely.
    Senator Pryor. And so if you have the phenomenon of 
liquefaction on the surface, what does that mean for buildings 
and infrastructure?
    Mr. Applegate. Well, it means that the ground has lost all 
its strength, and so it is essentially, it is turned into a 
slurry and so that can be a major challenge for buildings, for 
lifelines, and it is certainly one of the aspects in the 
catastrophic planning scenario that is being looked at in terms 
of the range of damages that could be experienced.
    Senator Pryor. And how long does that liquefaction, or 
liquefied state, remain on the surface? Is it over once the 
shaking stops, or does it remain there?
    Mr. Applegate. Well, it partly depends on how much of the 
groundwater basically gets squired out. So there are areas 
where you are going to get uplift. There are other areas where 
you are going to get substance. The whole ground surface is 
going to drop. In those areas, you may get flooding. For 
example, in certain agricultural areas, you could get flooding 
that would last for months. In other areas, it is going to be 
over relatively quick, but you are going to be dealing with a 
lot of ground rupturing and that sort of thing.
    Senator Pryor. Is there any practical rule of thumb on when 
you can start rebuilding after you have a major earthquake like 
that?
    Mr. Applegate. That is where the New Madrid earthquake 
poses an extra challenge compared to the kinds of earthquakes 
that we tend to see in other parts of the country. This 
sequence of large events that happened over a 2-month period in 
1811, when we look back at the geologic record, it appears that 
there are similar sequences, so that may be sort of the 
characteristic way that the stress is relieved, which means 
that does need to be factored into the rebuilding, that you 
could have not just sort of week-after shocks, but you could 
have another major event in a month, and that certainly is 
critical in terms of how you make your decisions about 
rebuilding.
    Senator Pryor. Are those aftershocks predictable?
    Mr. Applegate. Earthquake prediction remains a huge 
challenge, and in some ways, we look at earthquakes and we have 
gotten pretty good at saying where earthquakes occur. The 
challenge is knowing when a big earthquake is going to occur. 
So our hazard maps are all about saying where--that is an 
example of where earthquakes are going to occur. But from a 
prediction standpoint, it may be that the earthquakes 
themselves don't actually know how large they are going to grow 
until the rupture has initiated. So a lot of folks have been 
trying, but have not yet succeeded.
    Senator Pryor. Geologically, in the New Madrid area, are 
you seeing signs that pressure is building or things are 
happening under the surface? Can you make an accurate 
prediction? You gave some statistics during your opening 
statement about a certain percentage chance over so many years. 
Could you run through those again?
    Mr. Applegate. Sure. The kind of forecasts that I was 
referring to are based on the same data that go into our 
National Seismic Hazard maps, and that then in turn is what 
gets built into building codes. And so we do that prediction or 
forecast over a 50-year period, which is sort of the life span 
of a typical building. The estimate based on the recurrence 
history of these previous large events and moderate-size events 
are for about a 7 to 10 percent chance over the next 50 years 
for a magnitude 7.0-plus event, but in the area of 25 to 40 
percent for another one in the magnitude 6.0 range, sort of 
similar to that 1895 event that you have there. So again, those 
projections are about where earthquakes are going to occur and 
then can be fed into building codes that can make buildings 
stronger.
    Senator Pryor. And do you know anything about the building 
codes? Are people following those building codes out there?
    Mr. Applegate. Well, that is part of the handoff we have in 
NEHRP.
    Senator Pryor. I understand.
    Mr. Applegate. We prepare the maps and we work with FEMA to 
get those provisions built into model codes and then that is 
part of their NEHRP activity--is the actual looking at the 
adoptions. We certainly try to do what we can in conjunction in 
terms of building public awareness, but that is certainly a 
challenge.
    Senator Pryor. All right. Mr. Hayes, during your testimony 
you referred to FEMA, NIST, NSF, and USGS. We have a lot of 
Federal agencies involved here. Could you give us the one-
minute description of the role each plays when it comes to 
earthquake planning and response? Could you give us a very 
brief summary on that?
    Mr. Hayes. Well, within NEHRP, sir, there is not a very 
extensive role that NEHRP plays in planning and response. The 
statute has NEHRP focusing on pre-disaster mitigation efforts. 
Within the legislation, essentially FEMA is levied with the 
responsibility for exercising the National Response Plan when 
an event occurs and work that USGS, our partners at USGS 
provide, as Mr. Applegate has described for you, provide 
information that is used in the response activities following 
an earthquake. NIST and NSF are responsible for providing 
research results that can then be worked by FEMA into the 
National Model Building Code process. But we don't actually 
play an active role other than what FEMA does and in what USGS 
does indirectly in the response activities following an 
earthquake.
    Senator Pryor. Mr. Hayes, is it your impression that 
information is flowing among the agencies as it should be, or 
can we improve there?
    Mr. Hayes. I think that the information is flowing very 
well. We have a very good working partnership, and I suppose 
you would expect me to say that anyway, but I really mean it. I 
have been asked that question before and it starts with 
developing personal relationships with the other people and the 
other agencies. I consider this young man here to be a real 
good friend and we work together very closely, and he gets so 
many e-mails and phone calls from me that he doesn't sometimes 
want to open the next one. But I think we are working together 
very well.
    And I think at the higher levels of the agencies, the 
creation of the Interagency Coordinating Committee, which is 
comprised of the agency directors----
    Senator Pryor. I am sorry, go ahead.
    Mr. Hayes. No problem. I think that the creation of the 
Interagency Coordinating Committee, which was required by the 
2004 reauthorization, has improved the communication process 
among the agencies even more because the agency directors or 
their representatives are meeting periodically and are in a 
room face-to-face to discuss the issues that are before the 
people at the working level in those agencies. So I think it is 
very good, actually.
    Senator Pryor. Good. Mr. Cannon, let me turn to you, if I 
may. There is a mystery here on the Subcommittee and it has to 
do with the Federal Contingency Plan Report. Apparently the 
staff asked FEMA for that last month, last week, and even 
yesterday, and we have been given assurances that it exists, 
but FEMA has failed to provide it to the Committee. Do you know 
anything about that?
    Mr. Cannon. What I can speak to is the fact that there is 
an Interim Contingency Plan----
    Senator Pryor. Right.
    Mr. Cannon [continuing]. Which we developed early on in the 
process of the New Madrid Seismic Zone effort so that at FEMA 
and at the Federal level, we would have a coordinated approach 
to a no-notice event. It is just a draft. It is an interim. It 
is not a final document. But it is my understanding that this 
Friday, FEMA staff will be coming over and we are actually 
going to have a chance to go through and look at the event. But 
it has not been released because it is not ready yet to be 
released.
    Senator Pryor. When will it be ready for release?
    Mr. Cannon. Well, it is not the planning product, it is 
just what we would do in the event of something occurring 
tomorrow or next week. So it won't be complete until the end of 
all the workshops and all--because it is continually refined. 
As we do each State and we complete each State, then we add 
more details to it.
    But it began as a very generic, normal no-notice response 
template. Just as we have a notice template for hurricanes, we 
have a no-notice template that we are using for New Madrid. But 
it is the same no-notice template that we would essentially use 
if we had a terrorist event next week, as well. The primary 
difference between notice and no-notice is how much time you 
have to prepare to respond, and there are certain things that 
have to occur in every one of those events. So specifically, 
this one we did for New Madrid, but it is an ongoing process. 
So I wish I could tell you it would be done in a month or a 
year, but that is really not the case. It will transition into 
the final document for New Madrid when all the workshops are 
completed.
    Senator Pryor. Do you think it will be more than a year?
    Mr. Cannon. I do think it will be more than a year, we have 
only two more States to do some workshops in in the first 
quarter of 2008, so hopefully by mid-year, we might be able to 
share something that we could put out publicly. But again, it 
is an interim dynamic document. It is not meant to be a 
finished document at any point in time.
    Senator Pryor. But as I understand what you said a minute 
ago, you are going to make it available to our staffs on Friday 
of this week?
    Mr. Cannon. Yes, sir, in its present form, as it exists 
today. And each week you look at it, it is a snapshot of where 
we are at that moment in time because it constantly changes as 
we gather more information from the planning process.
    Senator Pryor. OK. There has been, as I said, a mystery for 
this document. I think previously we were given assurances that 
we could see it and have access to it and that just never has 
happened. Apparently as recently as this week, someone from 
your office brought over a stack of documents and a note saying 
the report was in there, but it wasn't. So if you are going to 
make it available this week, that would be very helpful and we 
will follow up accordingly.
    Mr. Cannon. Yes, sir. Friday, I understand, there will be a 
review of it with your staffs.
    Senator Pryor. Great. Let me ask this, Mr. Cannon, if I 
can. As I understand it, you have a tentative plan to do a 
major exercise relating to the New Madrid fault zone sometime 
in 2011, is that right?
    Mr. Cannon. Yes, sir. That is the date for the final 
completed plan and exercise.
    Senator Pryor. Do you know whether that is going to be a 
TOPOFF exercise?
    Mr. Cannon. No, I don't. Right now, we are building it as 
just our final exercise for New Madrid. I don't know if the 
next TOPOFF would include that or not.
    Senator Pryor. OK. And who makes that decision?
    Mr. Cannon. That decision is really done by Preparedness, 
which is now part of FEMA. It returned last April. I can 
certainly inquire for you if that could be considered as part 
of the TOPOFF scenario.
    Senator Pryor. Yes, I think that would be great because my 
experience with TOPOFF exercises is you just allocate more 
resources and more focus. If you look at the maps here, you can 
see how this could be a very catastrophic event for the United 
States. My sense is you ought to give it strong consideration 
for a TOPOFF----
    Mr. Cannon. I should also add, sir, that in 2009 and 2010, 
we are also scheduled for regional exercises within--there are 
four FEMA regions that cover those eight States and so we have 
planned on smaller exercises within those regions building up 
to the final large exercise. And the other piece is that a 
portion of it was exercised in this year's Coast Guard-EPA 
Spills of National Significance on the Mississippi.
    Senator Pryor. OK. And let me ask you if you know about 
building codes. Are you familiar with how builders, etc., home 
builders and commercial builders, are doing in terms of 
complying with building codes and doing that type of prep work 
in anticipation of an earthquake?
    Mr. Cannon. I believe that through FEMA's Mitigation 
Directorate, we have developed model codes for this area, and I 
understand----
    Senator Pryor. Are they being followed?
    Mr. Cannon. Well, I understand that some have been adopted 
at the local level. We will get back with you to report if 
there are any at the State level, but in my reading, I didn't 
come across that. I only came across that there were local 
governments that have adopted some codes.
    Senator Pryor. OK. Let me ask you, Mr. Cannon, while I have 
you, about the effect a major earthquake would have on 
interstate commerce. Has FEMA worked through scenarios about 
what would happen if the Mississippi River closed down and if 
bridges collapsed across the river? Do you have contingency 
plans?
    Mr. Cannon. Yes, sir. It is all part of the planning 
process, and this is a geographically-based, scenario-driven 
planning process that goes from the ground up. What we wanted 
to do was to make sure that everyone involved--the initial 
first responders, the local governments that would have to be 
involved, their State Governments, all are part of this process 
so that, one, they get to know each other before the event 
occurs, and two, they know what the expectations are of each 
other.
    So we are looking at this area from our level, at FEMA's 
level, as supporting all those local incident commanders and 
first responders as part of the National Incident Command 
System and Unified Command, but also our planning in how do we 
support this if the roadways are gone, river traffic may not be 
there, airfields may be disrupted. How are we going to get the 
resources in there to support that? And that is all part of our 
contingency planning that we are doing for New Madrid. That 
will all be included, but basically, we need to surround this 
and come in from all sides.
    Senator Pryor. The other thing there in that part of the 
country, it just happens there is a lot of rail infrastructure 
there, and also pipelines with natural gas and oil run through 
that area, so an earthquake could be very disruptive. You could 
have a major chemical spill either in the Mississippi River or 
somewhere in that region--or many places in that region, in 
fact. So again, this could be a major catastrophic event.
    Mr. Cannon, do you know a lot about the insurance industry? 
I know after Hurricane Katrina, there were some very serious 
problems with the insurance industry about wind damage versus 
water damage. I know that there is such a thing as earthquake 
insurance. Does FEMA or your office get into when that should 
be recommended and what happens if people don't carry that?
    Mr. Cannon. No, sir, not my office. We do operations, 
disaster operation response, but I believe we could get you 
some information from Mitigation that would provide what you 
are asking for.
    Senator Pryor. That would be great. One of my concerns 
there is after Hurricane Katrina, the wind damage----
    Mr. Cannon. Yes.
    Senator Pryor [continuing]. Versus the water damage, and 
you can have that same type of scenario with an earthquake, 
because it may be the earthquake causes a fire and the house 
burns down.
    Mr. Cannon. Yes, sir.
    Senator Pryor. It could be a mud slide or a flood when a 
levee breaks or whatever the situation is. It may not be the 
earthquake itself. We talked in the Commerce Committee, of 
which I am a member, about an all-hazards-approach. I know that 
is out of your bailiwick, but I hope that the government and 
the insurance industry are talking, so I would encourage FEMA 
to reach out and work with Congress and work with the insurance 
industry on that.
    Mr. Cannon. Yes, sir. We will get back to you with that.
    Senator Pryor. You guys did a great job in your opening 
statements and you covered some of these questions previously. 
Why don't I go ahead and close this panel and I will ask the 
second panel to come up, but again remind this panel before you 
leave that some of our Members aren't here today and we may 
have some follow-up questions. I want to thank this panel for 
being here and appreciate your expertise and your looking at 
the New Madrid situation. Thank you very much.
    Mr. Hayes. Thank you.
    Mr. Applegate. Thank you.
    Mr. Cannon. Thank you, sir.
    Senator Pryor. With that, I will call the second panel up 
here, and as they are getting squared away and the two panels 
are switching places, let me go ahead and introduce our second 
panel of witnesses.
    The first witness will be David Maxwell. He is Director of 
the Arkansas Department of Emergency Management. As Director, 
Mr. Maxwell chairs the Arkansas Homeland Security Advisory 
Group and serves on several emergency management committees and 
councils for the State of Arkansas. At the national level, he 
is Vice Chair of the Central United States Earthquake 
Consortium (CUSEC), and participates as a State member of the 
National Emergency Management Association.
    The second witness we have will be Callen Hays, Crisis 
Management Coordinator for Memphis Light, Gas, and Water. Mr. 
Hays served as the project manager for the construction of the 
Memphis Light, Gas, and Water's new emergency operations 
center, which opened last June. He also served as the project 
manager for the hazard mitigation study that was commissioned 
by Memphis Light, Gas, and Water in 2006. Mr. Hays is a 
licensed professional engineer for the State of Tennessee and 
has worked with his company for 13 years.
    So with that, Mr. Maxwell, go ahead.

TESTIMONY OF DAVID MAXWELL,\1\ DIRECTOR, ARKANSAS DEPARTMENT OF 
  EMERGENCY MANAGEMENT AND VICE CHAIR, CENTRAL UNITED STATES 
                     EARTHQUAKE CONSORTIUM

    Mr. Maxwell. Thank you, Chairman Pryor, Senator Sununu, and 
other Members of the Subcommittee. I appreciate the opportunity 
to appear before you today. As stated, I am David Maxwell, 
Director of the Arkansas Department of Emergency Management 
(ADEM), as well as the current Vice Chair of the Central United 
States Earthquake Consortium (CUSEC).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maxwell appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    ADEM's role in planning for an earthquake along the New 
Madrid Seismic Zone falls into two areas. The first and primary 
area of focus is to establish and implement an earthquake 
preparedness program to ensure the safety and well-being of the 
citizens of Arkansas from the risks associated with earthquakes 
within the State, and second to address those aspects outside 
the State which would certainly have a direct effect on 
Arkansas.
    We take an all-hazards approach when planning and perform a 
gap analysis for specific hazards where needed. This requires 
the full cooperation of all other State and local government 
agencies, departments, and personnel.
    CUSEC serves as a coordinating hub for the region, 
performing the critical role of coordinating multi-State 
efforts of the Central Region. While each individual State is 
the primary implementor of emergency management functions, 
CUSEC's role is largely facilitative in uniting and 
coordinating actions of the eight States in the New Madrid 
Seismic Zone--Alabama, Arkansas, Illinois, Indiana, Kentucky, 
Mississippi, Missouri, and Tennessee.
    In 1997, Congress enacted the Earthquake Hazards Reduction 
Act in recognition of the fact that earthquakes pose the 
greatest potential threat of any single event natural hazard 
confronting the Nation. It directed the President to establish 
and maintain an effective Earthquake Hazards Reduction Program. 
In doing this, Congress created the National Earthquake Hazards 
Reduction Program, which gives the responsibility to the 
Federal Government to provide direction, coordination, 
research, and other support efforts aimed at earthquake hazard 
mitigation and preparedness. The Federal Emergency Management 
Agency, the U.S. Geological Survey, the National Science 
Foundation, and the National Institute of Standards and 
Technology were assigned specific roles.
    While national attention focused on the high-risk areas 
such as California, the late Dr. Otto Nuttli of St. Louis 
University was pioneering research on the dangers of 
earthquakes in the Central United States. His research provided 
the conclusive evidence that prompted the creation of CUSEC in 
1983. FEMA, in full cooperation with the States most at risk 
from a New Madrid seismic event, laid the groundwork for the 
formulation of CUSEC that year. This partnership was built 
around four goal areas: Public outreach and education, multi-
State planning, mitigation, and application of research to 
address the hazard and associated risk. The primary mission is 
the reduction of deaths, injuries, property damage, and 
economic losses resulting from earthquakes in the Central 
United States. Authority for CUSEC is vested in the Board of 
Directors, which is composed of the Directors of Emergency 
Management for the eight member States.
    As Director of ADEM, I oversee every aspect of emergency 
management for the State of Arkansas. This includes the 
planning, mitigation, response and recovery efforts for an 
earthquake. My written remarks today deal specifically with 
what could happen should a catastrophic earthquake occur in the 
area.
    There is always work to be done in preparedness. While I 
cannot show you where preparedness works, I can show you where 
it was not used. We exercise and plan according to current 
research and upgrade it constantly to keep up with new 
developments. There will always be a need to practice 
coordination between local, State, and Federal organizations 
involved. A challenge will always be the lack of warning that 
an earthquake presents.
    Arkansas, as well as the other CUSEC member States, are 
constantly improving their catastrophic plans to address issues 
that will arise when an earthquake strikes. The biggest 
challenge we have is selling the need for preparedness on 
earthquakes. Because we do not live in a State where 
earthquakes are a regular occurrence, the thought tends to be 
that they will not happen. While we all know that earthquakes 
cannot be prevented, certainly we can minimize casualties and 
damages by being prepared. I cannot overemphasize the 
importance of awareness and self-preparation.
    Thank you so much for your kind attention. It has been my 
honor to be with you today and I will be happy to attempt to 
answer any questions.
    Senator Pryor. Thank you. It is great to see you again, Mr. 
Hays.

  TESTIMONY OF CALLEN HAYS,\1\ CRISIS MANAGEMENT COORDINATOR, 
                 MEMPHIS LIGHT, GAS, AND WATER

    Mr. Hays. Let me begin with a quick apology. I am currently 
battling some laryngitis issues, so I know my voice will come 
and go during my statement. Just bear with me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hays appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    Memphis Light, Gas, and Water since 1989 has spent $16 
million to upgrade our water production facilities. We have 
been awarded almost $4 million in FEMA grants to retrofit four 
out of eight water pumping facilities and nearly 60 water 
production wells. Given the past success of these efforts, 
MLG&W felt there were other mitigation opportunities for our 
gas and electric systems. Determining the most effective 
spending of money relative to size and mitigation is a question 
not many utilities have the personnel and the expertise to 
handle.
    In early 2006, we budgeted for and contracted an all-hazard 
mitigation study to R.W. Howe and Associates. This study would 
recommend where each network is most vulnerable to various 
natural hazards and where the most effective spending of 
retrofit dollars reside and the best opportunities to apply for 
Federal funding.
    No one can predict the exact amount of damage or cost of an 
event like this. The majority of damage taking the longest 
amount of time to restore would be the water treatment plants 
that have yet to be seismically mitigated, underground 
pipelines on gas and water distribution systems, and unanchored 
transformers at electric substations. There is no economically 
feasible way to mitigate underground pipelines. Strengthening 
the above-ground collection, control, and distribution points 
of all three networks will reduce the down-time. It will be a 
lengthy restoration process for customers. It certainly will 
take months, not weeks, to restore.
    Widespread outages of all three systems varying in 
restoration time will occur. The outage time will be based on 
many factors that are difficult to quantify: A customer's 
location relative to the system failure; condition of 
overpasses and bridges that may prevent easy access of 
materials, equipment, and mutual aid labor forces from arriving 
in the region; the ability of MLG&W's remote monitoring system 
to remain intact; and the amount of down time of our wholesale 
suppliers of electricity and gas. If TVA's transmission system 
is down or there are several breaks along the natural gas 
pipelines of our suppliers, then the rigidity and strength of 
our system will be inconsequential.
    MLG&W's restoration priorities are to preserve life safety 
first and foremost, which means reestablishing services to 
hospitals, water pumping stations, and sewer treatment plants 
are the highest priority.
    There are other ways that we are preparing ourselves for 
this seismic event. We have been replacing our cast iron gas 
distribution system in the inner city of Memphis. Cast iron gas 
pipe is more subject to failure with sudden ground motion than 
polyethylene pipe, which is much more flexible. Since 1991, 
MLG&W has spent $48 million to replace 206 miles of cast iron 
gas pipe. MLG&W recognizes and is adopting the National 
Incident Management System and the Incident Command Structure 
into its emergency response protocol. We require all members of 
our crisis response teams to be both NIMS and ICS trained and 
certified.
    MLG&W bought a new business building back in 2003 that was 
seismically retrofitted for immediate occupancy and operability 
following a magnitude 7.0 earthquake. We placed all critical 
telecommunications, computer network servers, and a new 
emergency operations center in this building. The increased 
awareness of the constant work that has to be done for business 
continuity and disaster recovery planning for MLG&W operations 
has justified the process of creating an area department 
focused on crisis management.
    MLG&W works hard to integrate itself with other local, 
State, and Federal Governments, as well as private sector 
partners, to discuss ways of improving this area's emergency 
management readiness. We have upper management employees that 
serve on several local business continuity and disaster 
recovery planning committee boards.
    We have made efforts to educate the community on how it can 
be more self-reliant following a catastrophic event. Partnering 
with our local PBS station, we broadcast a show called 
``Memphis Energized.'' On one of these shows, we teach our 
customers how to shut off their gas and water services in case 
of an emergency, how to strap gas-fired hot water heaters to 
house framework, and to have a personal emergency plan ready. 
Our local EMA office teaches Community Emergency Response Team 
classes, or CERT classes, to help residents learn how to endure 
a long-term emergency event. The public needs to understand 
after a large earthquake it can and will be months, not days, 
before many utility services are restored and they need to be 
educated on how they can be ready.
    There are a couple areas where improvements can be made to 
help utilities in this area prepare for an earthquake. The 
Federal mitigation money available to support seismic retrofits 
for public utility infrastructure is an annual pre-disaster 
mitigation program. For 2008, the program only had $100 million 
available nationwide, of which perhaps 10 percent was allocated 
to utility projects. Given the criticality of utilities to life 
preservation and economic well-being of this region and the 
Nation, more funding earmarked for seismic utility retrofit 
work, as well as giving some priority to our utilities located 
in the New Madrid, is needed. MLG&W had the resources to fund a 
comprehensive hazard mitigation study. Many rural and small 
utility companies cannot afford this type of analysis. Funding 
for these types of studies to help guide smaller utilities on 
their mitigation strategies would be helpful.
    Enhancing public education concerning residential emergency 
preparedness is needed. MLG&W voluntarily began mitigating its 
utility systems back in 1999. Many utilities and energy 
suppliers may not be taking this threat as seriously. Utility 
distributors are dependent on wholesale suppliers of 
electricity and gas. The government needs to ensure that both 
public and private wholesale suppliers of electricity and gas 
in the New Madrid Seismic Zone area have considered this threat 
and are taking steps to mitigate their own systems.
    This concludes my testimony. Thanks.
    Senator Pryor. Let me, if I may, start with you, Mr. 
Maxwell. You probably heard me quiz the FEMA witness earlier 
about this contingency plan. He said it was a draft, it is not 
ready yet, it may be a year or more before it is completed. But 
from your standpoint, given the position you hold in the State, 
have you been contacted to give any input into that report?
    Mr. Maxwell. Well, if I understood Mr. Cannon's remark, 
they are basing a lot of the State input on the workshops that 
we are conducting that FEMA is funding. So they are getting 
State input through those workshops.
    Senator Pryor. OK. Have you seen a draft of the report at 
all?
    Mr. Maxwell. No.
    Senator Pryor. OK. And also let me ask you about a story 
that came out recently that the White House, OMB, may propose 
in fiscal year 2009, to eliminate Emergency Management 
Performance Grants (EMPG), from the budget in the 2009 fiscal 
year. While I understand that nothing has been finalized and 
this news report is based on a leak and it is a very tentative 
proposal, I would like to get your thoughts on that, about how 
the State of Arkansas and other States use EMPG grants and what 
would happen if we lost access to that funding source.
    Mr. Maxwell. Well, the EMPG grants go to fund part of our 
agency and to a large degree funds the local emergency managers 
in every county. We share a portion of that grant with our 
local officials to help fund the salaries of the local 
emergency managers. So the short answer to it all is if you 
want to do away with the emergency management system in this 
Nation, you do away with that grant.
    Senator Pryor. Yes. And you may not know right off the top 
of your head, but do you know how much Arkansas has received 
from that grant annually?
    Mr. Maxwell. Off the top of my head, I believe it was 
around $3 million this year.
    Senator Pryor. OK. And I assume that other States get a 
rough----
    Mr. Maxwell. Equivalent----
    Senator Pryor [continuing]. Amount of that based on 
population and----
    Mr. Maxwell. It is based on population----
    Senator Pryor. Yes.
    Mr. Maxwell. We get about one percent of what is allocated 
nationwide.
    Senator Pryor. So it would be a considerable detriment to 
State and local emergency management efforts?
    Mr. Maxwell. Yes, sir. That is putting it mildly.
    Senator Pryor. OK. Mr. Hays, I know your voice is not 
holding up so well today, but let me ask a few questions. We 
are talking about grants. You mentioned that you have received 
some grants to retrofit and otherwise strengthen some of your 
facilities. How has that gone, and when you do that, do you 
report back to the Federal Government on what you are doing and 
how that is going? Give us a sense of what that has been like.
    Mr. Hays. The reporting structure back, I am not really 
familiar with that, but I do know that the $4 million total 
that I mentioned earlier is spread out over four different 
grants that we were awarded through FEMA and all those grants 
were relative to our water production facilities, things like 
bracing aerators, filtration systems, pump buildings, some of 
our water treatment plants. The theory is you can't keep 
underground pipelines from breaking apart when an earthquake 
like this happens, but if you can keep an above-ground water 
treatment plant that takes years to build, then the amount of 
time it takes to band-aid your pipelines, to get them so the 
water is flowing through again, quickly and help the 
restoration process. So we focused on our grants doing water 
treatment.
    Senator Pryor. Great. And as part of this effort, it sounds 
like Memphis Light, Gas, and Water has gone through a risk 
assessment study to understand where the weak links are in the 
system, so to speak, and I am sure Memphis Light, Gas, and 
Water has tried to predict the results of a serious earthquake. 
Give us a sense of what you think might happen in Memphis if 
there was a serious earthquake like is depicted on some of 
these maps.\1\
---------------------------------------------------------------------------
    \1\ The charts referred to appears in the Appendix on page 65.
---------------------------------------------------------------------------
    Mr. Hays. We partner with the Mid-America Earthquake, share 
that information with them and they have given us some 
estimates from their models that show, I think, $56 billion in 
economic loss for the State of Tennessee with majority of 
losses in the Memphis and Shelby County region and $15 billion 
of that is directly related to utility infrastructure costs. 
How real those numbers are computer generated based on data and 
uncertainty about exactly where the ground is going to liquefy 
and the amount of ground shaking relative to where you have 
critical infrastructure is unknown. But it is going to take an 
extremely long amount of time to repair especially an 
underground infrastructure, pipelines. And as you mentioned 
earlier, there are also three major natural gas suppliers that 
go through Shelby County and that continues on to the north, 
Texas Gas, Trunkline, and ANR.
    Senator Pryor. Yes.
    Mr. Hays. So that needs to be considered, as well.
    Senator Pryor. Right. And what about your staffing, because 
it seems to me if you have a catastrophic event like this, you 
will by necessity be short-handed because a lot of your people 
will be out in the metro area when this happens, and will not 
be able to come in to you. Do you have contingency plans for 
that on how you are going to try to handle the staffing needs 
and to try to restore those services as quickly as possible?
    Mr. Hays. We have crisis teams already established, an 
electric crisis team, gas crisis team, and a water crisis team, 
and each person on each of those teams have back-up personnel 
and each with their responsibilities. It is going to be 
difficult to know who is going to be able to be available for 
work and even their back-ups. Everyone will certainly 
understand the first day or two will be spent with most people 
taking care of their families and making their own personal 
life secure. It is almost like, as you know, hope for the best, 
having everything backed up and hope they can make it.
    Senator Pryor. As someone told me one time, hope for the 
best, but plan for the worst.
    Mr. Hays. Correct.
    Senator Pryor. You heard me talk with the FEMA witness a 
few minutes ago about a large-scale exercise where you have all 
levels of government working together--Federal, State, local. 
Get the private sector involved, volunteer organizations, 
health providers, etc., first responders, all that, everybody 
doing a large-scale simulation or a big exercise. Have you all 
done something like that and did it, or would it benefit you to 
do that?
    Mr. Hays. We have. We participated in the SONS 2007 
exercise this past June that was based on a large-scale 
magnitude earthquake and we corresponded with our local EMA 
office participating in that drill.
    Senator Pryor. And was that beneficial to you?
    Mr. Hays. It was. The key weakness that is brought up time 
and again is communications. That will be a difficult task to 
overcome logistically as one's land lines are cut and cell 
phone towers fall or networks are overwhelmed. Using other 
means of communications will be difficult.
    Senator Pryor. Right. Mr. Maxwell, let me turn to you, if I 
can. We talked about CUSEC earlier. You are involved with that 
group and I think that is great. And as a member of that group 
plus what you do in Arkansas, what sort of guidance are you 
getting from the Federal Government in your planning and 
response effort? Are they working with you on a regional level 
or just on the State level, or tell us how that is going.
    Mr. Maxwell. We have a little of both, actually. We are, in 
these series of workshops that we are doing that are funded by 
FEMA, we did three in the State of Arkansas. We did three local 
workshops to enable a lot of local responders and local 
officials to be involved to really start to identify the gaps 
that are out there that we need to respond to. Then we had a 
State-wide workshop to take the information gleaned from the 
local workshops and pull it together to see what the State 
could do. We are hoping that we can prevail upon FEMA to 
release the funds that we did not spend on those workshops to 
go back out to the local governments and do a series of 
tabletops to really solidify a lot of the information that came 
out in the larger workshops.
    Senator Pryor. And how helpful are the tabletops? You just 
did one last month?
    Mr. Maxwell. Yes, sir. Actually, we have done two within a 
month. Governor Beebe, as you know, is very interested in all 
of this and he has pulled his cabinet together, or certain 
segments of the cabinet together to do tabletop exercises. We 
have done one on terrorism. The last one we did was on 
earthquakes, which was extremely beneficial for us. After that 
tabletop, the governor instructed me to, within the next couple 
of weeks, which we have done, to run the same scenario again 
but with the deputy directors of the agencies, not just with 
the directors, to ensure that we don't have major fall-off if 
the directors aren't available. So we are looking at that 
continuity of operations aspect.
    Senator Pryor. Now, when you are doing these tabletops, I 
know that is mostly in Arkansas, but when you look at the red 
zone here, clearly at a minimum in all these maps, you get 
Arkansas, Missouri, and Tennessee, and in other maps you get a 
lot bigger red zone in that. Do you work with Missouri, 
Tennessee, your counterparts there?
    Mr. Maxwell. Yes, sir. As a matter of fact, I leave here 
today and will be attending a CUSEC Board of Directors meeting 
with my counterparts in all of those States to discuss issues 
and make sure that we are coordinating our efforts.
    Senator Pryor. Is the State of Arkansas, as well as these 
other States, coordinating with States that may be out on the 
rim, like Oklahoma, Texas, Louisiana, etc., that hopefully 
won't be as adversely impacted as us toward the center will be 
and to establish mutual aid agreements with them? Have we gone 
that far?
    Mr. Maxwell. Yes, sir. One of the things that we are 
working on very hard and one of the lessons that we learned 
from Hurricane Katrina, actually, was that we do have to have 
those plans in place to shelter a large number of people from 
our State. And so we have had discussions with Oklahoma, Texas, 
other States in the FEMA Region 6 so that in the event--we have 
a Memorandum of Understanding in writing with Louisiana that 
goes two ways. If there is a hurricane, we will accept their 
evacuees, and if there is an earthquake, they will accept ours.
    Senator Pryor. Great. Mr. Maxwell, in your testimony, you 
said something I thought was insightful. You said the biggest 
challenge is, ``selling the need for preparedness on 
earthquakes,'' especially in our part of the country, because 
we just don't have a lot of experience with that. I mean, we 
talk about something that happened in 1811 or 1895. There are 
just not a whole lot of people around who went through that 
before.
    So my question is how do you educate the public? Is it 
Public Service Announcements? Is it through the public schools? 
What can the Federal Government do to better bring public 
awareness to the real danger of an earthquake in our State and 
this region?
    Mr. Maxwell. Well, I think the answer to that is yes to all 
of the above. Really, we need to do Public Service 
Announcements. We do town hall meetings where we go out and try 
to educate the general public. We are going to try some new 
things. With all of my gray hair, you can tell I am not really 
up on a lot of the newer technology, but we have staff that are 
exploring how to use You Tube and other things that the younger 
generation automatically uses to put educational messages out. 
We are going to try anything that we possibly can that might 
work.
    A couple of years back, I was sitting in a meeting talking 
about earthquakes and somebody that was very involved in 
preparedness leaned over to me and said, ``You know, we ought 
to put out messages that people need to be prepared.'' We do 
that all the time, and so obviously our message isn't being 
heard. So our problem is finding a way to get that message out 
where it will be heard. It is not working, the traditional 
means, so we will try any avenue.
    Senator Pryor. Well, I think it is human nature for people 
to naturally want to filter out and not pay a lot of attention 
to the earthquake threat because they don't feel that sense of 
urgency or it is not real to them, but I tell you, if you go 
down to New Orleans and you see the devastation they have gone 
through, it makes you appreciate the destructive power of 
Mother Nature. Anything we can do on the Federal level to help 
educate people and provide the resources to do what you need to 
do to get the word out to the public, we need to try to do it. 
Probably with Memphis, you guys might put bill inserts in 
periodically and things like that. We just need to continue to 
raise awareness. Even though that first message usually doesn't 
work, after people are exposed to that message a number of 
times, hopefully, it will start sinking in.
    Listen, that is all the questions I had. Again, we are 
going to have some Senators who could not be here today who may 
submit questions for the record. I just want to thank our two 
panels for all that they do and the panelists. I notice that 
Dr. Applegate stayed. We appreciate that, and the staff from 
the previous panel stayed. We really appreciate that, your 
staying to listen.
    I just want to tell you that this is something that is very 
real. There is a very real danger. We don't know how imminent 
it is. That is one of the things that is very elusive here. But 
we know that at some point, if it does happen, it could be a 
major catastrophic event and we need to do all we can to be 
prepared for it.
    So again, I want to thank you all for coming here. I know 
some of you traveled a great distance to be here and I 
appreciate that.
    The last thing I was going to say is we are going to leave 
the record open for 2 weeks and allow Senators to submit their 
questions in writing. So if you all get some questions in 
writing, we would appreciate a rapid turn-around.
    With that, I want to thank all the Subcommittee staff and 
all the Senators and their staffs for doing this and certainly 
all the witnesses and the media for being here. Thank you very 
much.
    The hearing is adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]






















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
